Office of Material Loss Reviews
Report No. MLR-10-026


Material Loss Review of Mainstreet Bank,
Forest Lake, Minnesota




                                  March 2010
                                      Executive Summary

                                      Material Loss Review of Mainstreet Bank,
                                      Forest Lake, Minnesota
                                                                                       Report No. MLR-10-026
                                                                                                  March 2010

Why We Did The Audit

On August 28, 2009, the Minnesota Department of Commerce (MDC) closed Mainstreet Bank
(Mainstreet), Forest Lake, Minnesota, and named the FDIC as receiver. On September 25, 2009, the
FDIC notified the Office of Inspector General (OIG) that Mainstreet’s total assets at closing were
$435.9 million and the estimated loss to the Deposit Insurance Fund (DIF) was $94 million. As of
February 28, 2010, the estimated loss had increased to $97.9 million. As required by section 38(k) of the
Federal Deposit Insurance (FDI) Act, the OIG conducted a material loss review of the failure of
Mainstreet.

The audit objectives were to (1) determine the causes of the financial institution’s failure and resulting
material loss to the DIF and (2) evaluate the FDIC’s supervision of the institution, including
implementation of the Prompt Corrective Action (PCA) provisions of section 38.

Background

Mainstreet opened for business on March 15, 1903 as Chisago County State Bank and The County Bank,
and was insured by the FDIC on January 1, 1934. The bank assumed its current name when it merged
with Southview Bank, an affiliate, in November 2001. Mainstreet was wholly-owned by BancMidwest
Corporation, which also owned White Rock Bank, Cannon Falls, Minnesota. In February 2008,
BancMidwest Corporation acquired selected assets of First Bank and Trust, Hudson, Wisconsin and
merged it into Mainstreet. Mainstreet operated seven branches in Minnesota and one in Wisconsin.

The majority of Mainstreet’s lending was in commercial real estate (CRE), with a particular focus on
residential acquisition, development, and construction (ADC) loans. Mainstreet increasingly relied upon
large time deposits, brokered deposits, Federal Home Loan Bank (FHLB) borrowings, and federal funds
purchased to fund its loan growth.

Audit Results

Causes of Failure and Material Loss

Mainstreet’s Board and management failed to provide adequate oversight and implement sound risk
management practices relative to the bank’s pursuit of growth centered in CRE and ADC lending, which
included broker-originated loans. Ineffective oversight resulted in an inadequate loan policy, weak loan
underwriting and credit administration practices, and an underfunded provision for Allowance for Loan
and Lease Losses (ALLL). As rapid growth outpaced core deposits, the bank became increasingly
dependent upon access to volatile funding sources such as brokered deposits, FHLB borrowings, and
large time deposits. These funding sources became restricted when a downturn in the local economy
resulted in a deterioration in Mainstreet’s asset quality. Ultimately, the MDC closed Mainstreet on
August 28, 2009, declaring the bank insolvent.
   Executive Summary
                                     Material Loss Review of Mainstreet Bank,
                                     Forest Lake, Minnesota
                                                                                     Report No. MLR-10-026
                                                                                                March 2010

The FDIC’s Supervision of Mainstreet

The FDIC and the MDC conducted annual on-site examinations of Mainstreet consistent with
requirements and monitored the bank’s condition through the use of various offsite monitoring
mechanisms. Beginning in 2004, examiners consistently reported that Mainstreet had high CRE and
ADC concentrations and expressed concerns regarding the bank’s loan risk rating system and ALLL
methodology. However, the bank’s overall financial condition was considered satisfactory until the 2008
examination. By then, asset quality had rapidly deteriorated due to the decline in the real estate market.

The FDIC downgraded the institution’s ratings in 2008 and pursued an enforcement action aimed at
correcting identified problems. These supervisory actions, and Mainstreet’s efforts to address them, were
not successful in preventing the bank’s failure. The supervisory approach to Mainstreet was consistent
with prevailing practices at the time for a bank with Mainstreet’s risk profile. A lesson learned, however,
is that earlier and more formal supervisory action to mitigate the risk associated with CRE and ADC
concentrations, funded with non-core and other potentially volatile deposits, may have been prudent.
Specifically, examiners could have recommended that the Board diversify the bank’s loan portfolio and
required progress reports.

With respect to PCA, based on the supervisory actions taken, the FDIC properly implemented applicable
PCA provisions of section 38 in a timely manner. As part of a December 2008 Cease and Desist Order,
the FDIC required Mainstreet to submit a Capital Restoration Plan and the bank did so on March 11,
2009. On April 28, 2009, the FDIC sent a letter to the bank stating that the plan was unacceptable. On
June 12, 2009, Mainstreet submitted a revised Capital Restoration Plan that included the bank selling four
of its branches and other real estate owned; the holding company selling White Rock Bank; increasing the
ALLL; and the bank obtaining an investor. However, on August 12, 2009, the FDIC informed Mainstreet
that the revised plan was unacceptable as it provided little assurance that the bank’s capital would be
restored in a timely manner. On November 17, 2008, Mainstreet submitted an application for
$13.5 million in funding under the Troubled Asset Relief Program. Mainstreet subsequently withdrew its
application on February 25, 2009. On August 28, 2009, the MDC closed Mainstreet due to its insolvency.

Management Response

We issued a draft of this report on March 4, 2010. After we issued our draft report, we met with
management officials to further discuss our results. Management provided additional information for our
consideration, and we revised our report to reflect this information, as appropriate. On March 23, 2010,
the Director, Division of Supervision and Consumer Protection (DSC), provided a written response to the
draft report.

In its response, DSC reiterated the OIG’s conclusions regarding the cause of Mainstreet’s failure and cited
several supervisory activities, discussed in the report, that were undertaken to address risks at the
institution prior to its failure. DSC also noted that strong supervisory attention is necessary for
institutions with high ADC and CRE concentrations and volatile funding sources, such as Mainstreet, and
has issued updated guidance reminding examiners to take appropriate action when those risks are
imprudently managed.




                                 To view the full report, go to www.fdicig.gov
                                  Contents
                                                                  Page
Background                                                          2

Causes of Failure and Material Loss                                 3
 Concentrations in CRE and ADC Loans                                3
 Oversight and Risk Management Practices                            6
 Reliance on Volatile Funding Sources                               8

The FDIC’s Supervision of Mainstreet                               10
 Supervisory History                                               11
 Supervisory Response to Key Risks                                 13
 Implementation of PCA                                             16

Corporation Comments                                               17

Appendices 
 1. Objectives, Scope, and Methodology                             19
 2. Glossary of Terms                                              21
 3. Acronyms                                                       23
 4. Corporation Comments                                           24

Tables
 1. Selected Financial Information for Mainstreet, 2005 to 2009     2
 2. Mainstreet’s ADC Concentrations Compared to Peer Group          5
 3. Mainstreet’s CRE Concentrations Compared to Peer Group          5
 4. Mainstreet’s Adversely Classified Assets                        6
 5. Mainstreet’s Funding Sources                                    9
 6. Mainstreet’s Examination History, 2003 to 2009                 12

Figure
  Composition of Mainstreet’s Loan Portfolio                        4
Federal Deposit Insurance Corporation                                               Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, VA 22226                                                  Office of Inspector General


DATE:                                     March 25, 2010

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection

                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for Material Loss Reviews

SUBJECT:                                  Material Loss Review of Mainstreet Bank, Forest Lake,
                                          Minnesota (Report No. MLR-10-026)


As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the FDIC
Office of Inspector General (OIG) conducted a material loss1 review of the failure of
Mainstreet Bank (Mainstreet), Forest Lake, Minnesota. The Minnesota Department of
Commerce (MDC) closed Mainstreet on August 28, 2009 and named the FDIC as
receiver. On September 25, 2009, the FDIC notified the OIG that Mainstreet’s total
assets at closing were $435.9 million and the estimated loss to the Deposit Insurance
Fund (DIF) was $94 million. As of February 28, 2010, the estimated loss had increased
to $97.9 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency which
reviews the agency’s supervision of the institution, including the agency’s
implementation of FDI Act section 38, Prompt Corrective Action (PCA); ascertains why
the institution’s problems resulted in a material loss to the DIF; and makes
recommendations to prevent future losses.

The audit objectives were to (1) determine the causes of the financial institution’s failure
and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision2 of the
institution, including implementation of the PCA provisions of section 38 of the FDI Act.
This report presents our analysis of Mainstreet’s failure and the FDIC’s efforts to ensure
that Mainstreet’s Board of Directors (Board) and management operated the institution in
a safe and sound manner.


1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices (including internal control systems), and compliance with applicable laws and
regulations and (2) issues related guidance to institutions and examiners.
The report does not contain recommendations. Instead, as major causes, trends, and
common characteristics of financial institution failures are identified in reviews, we will
communicate those to management for its consideration. As resources allow, we may
also conduct more in-depth reviews of specific aspects of the FDIC’s supervision
program and make recommendations, as warranted. Appendix 1 contains details on our
objectives, scope, and methodology; Appendix 2 contains a glossary of terms; and
Appendix 3 contains a list of acronyms. Appendix 4 contains the Corporation’s
comments on this report.


Background
Mainstreet opened for business on March 15, 1903 as Chisago County State Bank and
The County Bank, and was insured by the FDIC on January 1, 1934. The bank assumed
its current name when it merged with Southview Bank, an affiliate, in November 2001.
Mainstreet was wholly-owned by BancMidwest Corporation, which also owned White
Rock Bank, Cannon Falls, Minnesota. In February 2008, BancMidwest Corporation
acquired selected assets of First Bank and Trust (First Bank), Hudson, Wisconsin and
merged it into Mainstreet.3 Mainstreet operated seven branches in Minnesota and one in
Wisconsin.

The majority of Mainstreet’s lending was in commercial real estate (CRE), with a
particular focus on residential acquisition, development, and construction (ADC) loans.
Mainstreet increasingly relied upon large time deposits, brokered deposits, Federal Home
Loan Bank (FHLB) borrowings, and federal funds purchased to fund its loan growth.
Table 1 provides details on Mainstreet’s financial condition as of June 30, 2009 and for
the 4 preceding calendar years.

Table 1: Selected Financial Information for Mainstreet, 2005 to 2009
       Financial Measure                 Jun-09          Dec-08      Dec-07         Dec-06        Dec-05

Total Assets ($000s)                     458,533         481,434      425,035       366,804       330,610
Total Deposits ($000s)                   432,818         429,381      324,784       314,451       286,487
Gross Loans and Leases ($000s)           230,528         287,866      341,773       313,571       291.613
Brokered Deposits ($000s)                 47,425          49,683      26,244        28,740        28,340
FHLB Borrowings ($000s)                   24,000          24,497      58,780        15,141        12,684
Net Income (Loss) ($000s)                (23,930)        (18,398)      3,692         5,744         5,226
Source: Uniform Bank Performance Reports (UBPR) for Mainstreet.

BancMidwest Corporation provided capital to support the bank’s growth, including
capital injections of $1.4 million and $3.5 million in 2007 and 2008, respectively.
However, as capital ratios continued to decline in support of provisions to the Allowance
for Loan and Lease Losses (ALLL), BancMidwest Corporation was not able to provide
additional support to the bank.

3
 FDIC officials stated that the loans from First Bank did not have a negative impact on Mainstreet’s loan
portfolio.

                                                     2
Causes of Failure and Material Loss
Mainstreet’s Board and management failed to provide adequate oversight and implement
sound risk management practices relative to the bank’s pursuit of growth centered in
CRE and ADC lending, which included broker-originated loans. Ineffective oversight
resulted in an inadequate loan policy, weak loan underwriting and credit administration
practices, and an underfunded ALLL. As rapid growth outpaced core deposits, the bank
became increasingly dependent upon access to volatile funding sources such as brokered
deposits, FHLB borrowings, and large time deposits. These funding sources became
restricted when a downturn in the local economy resulted in deterioration in Mainstreet’s
asset quality.

Further evidence of why Mainstreet failed was the level of adversely classified assets.
Specifically, adversely classified assets significantly increased from 2.37 percent of
Tier 1 Capital and reserves in 2003, to 150 percent in 2008, and more than 466 percent in
2009. Ultimately, the MDC closed Mainstreet on August 28, 2009, declaring the bank
insolvent.

Concentrations in CRE and ADC Loans

In 2001, Mainstreet’s management made a strategic decision to pursue growth centered in
CRE and ADC lending, which, in hindsight, was a key factor in the bank’s failure. In
addition, the Board’s decision to obtain broker-originated mortgages, without
implementing sound loan underwriting and credit administration practices, led to a
serious deterioration in asset quality as the real estate market declined. Mainstreet’s asset
growth was considerable – increasing from $58.7 million at the end of 2000 to over
$425 million by the end of 2007. According to FDIC documentation, approximately
$70 million of the asset growth resulted from the 2001 merger with Southview Bank.

The figure on the next page illustrates the general composition and growth of
Mainstreet’s loan portfolio in the years preceding the institution’s failure. Total
concentrations of CRE and ADC loans ranged from 59 percent to 77 percent of gross
loans and leases over the period 2003 to 2009, peaking in 2006.




                                             3
 Figure: Composition of Mainstreet’s Loan Portfolio

                                                  All Other Loans                        $342
                                       $350                                      $314
                                                  Other CRE Loans *
                                                                      $292
                                                  ADC Loans
                                       $300                                             $95     $288
                                                                                 $71
                                                           $238
   Gross Loans and Leases (Millions)




                                                                      $74                               $231
                                       $250                                                     $88
                                                $207

                                                           $76                   $82    $96
                                       $200                                                            $78
                                                                      $67
                                                $85
                                       $150                                                     $99
                                                           $54

                                                $31                                                    $97
                                       $100
                                                                      $151       $161   $151
                                                          $108                                  $101
                                       $50      $92
                                                                                                       $56

                                        $0
                                              Dec-2003 Dec-2004 Dec-2005 Dec-2006 Dec-2007 Dec-2008 Jun-2009
                                                                        Period Ended

Source: UBPRs and Consolidated Reports of Condition and Income (Call Reports) for Mainstreet.
* Includes owner-occupied CRE.

Joint guidance issued by the FDIC, the Office of the Comptroller of the Currency, and the
Board of Governors of the Federal Reserve System, entitled, Concentrations in
Commercial Real Estate Lending, Sound Risk Management Practices, dated
December 12, 2006, recognizes that there are substantial risks posed by CRE and ADC
concentrations. Such risks include unanticipated earnings and capital volatility during an
adverse downturn in the real estate market. The December 2006 guidance defines
institutions with significant CRE concentrations as those reporting loans for construction,
land and development, and other land (i.e., ADC) representing 100 percent or more of
total capital; or institutions reporting total CRE loans representing 300 percent or more of
total capital, where the outstanding balance of CRE has increased by 50 percent or more
during the prior 36 months. According to the guidance, an institution that has
experienced rapid growth in CRE lending, has notable exposure to a specific type of
CRE, or is approaching or exceeds the previous criteria may be identified for further
supervisory analysis of the level and nature of its CRE concentration risk.

As shown in Table 2, Mainstreet’s concentrations in ADC loans consistently represented
more than 100 percent of total capital from 2003 to 2009, exceeding the criteria for
identifying institutions that may have warranted further supervisory analysis once the

                                                                             4
interagency guidance took effect in December 2006. In addition, ADC loans as a percent
of the bank’s total capital and total loans were significantly above its peer group averages
during the same period.

Table 2: Mainstreet’s ADC Concentrations Compared to Peer Group
                            ADC Loans as a                                ADC Loans as a
  Period                 Percent of Total Capital                      Percent of Total Loans
  Ended                             Peer        Mainstreet                     Peer      Mainstreet
                 Mainstreet                                   Mainstreet
                                   Group        Percentile                    Group      Percentile
Dec 2003            419%             69%                99           44%       10%              98
Dec 2004            440%             81%                99           45%       11%              98
Dec 2005            526%            104%                99           52%       14%              98
Dec 2006            502%            117%                99           51%       16%              97
Dec 2007            433%            124%                97           44%       16%              94
Dec 2008            437%            111%                97           35%       14%              93
Jun 2009         (1,139%)*          98%                N/A           24%       13%              84
Source: UBPR data for Mainstreet.
*Percentage is negative because of negative capital.

Mainstreet’s CRE concentrations from 2003 to 2009 also exceeded the levels for
institutions that may be identified for further supervisory analysis, as shown in Table 3.
In addition, CRE loans as a percent of the bank’s total capital and total loans ranked
significantly above the bank’s peer group averages from 2007 to 2009 – years in which
the guidance was in effect.

 Table 3: Mainstreet’s CRE Concentrations Compared to Peer Group*
                            CRE Loans as a                               CRE Loans as a
  Period               Percent of Total Capital                      Percent of Total Loans
  Ended                          Peer      Mainstreet                         Peer      Mainstreet
                 Mainstreet                                   Mainstreet
                                Group      Percentile                        Group      Percentile
Dec 2003           559%             309%                91           59%       44%              76
Dec 2004           660%             323%                96           68%       45%              88
Dec 2005           760%             358%                99           75%       49%              90
Dec 2006           761%             371%                99           78%       50%              92
Dec 2007           708%             377%                97           72%       51%              86
Dec 2008           865%             380%                98           70%       50%              86
Jun 2009        (3,123%)**          364%               N/A           66%       49%              82
Source: UBPR data for Mainstreet.
* Percentages for Mainstreet and peers include owner-occupied CRE.
**Percentage is negative because of negative capital.

According to Board meeting minutes, Mainstreet’s Board and senior management
recognized that the real estate market was declining in 2006 but did not curtail the bank’s
pursuit of growth. On the contrary, the bank opened a new loan production office in
2007. The Board minutes also stated that, even though the bank had experienced a
20-percent to 25-percent delinquency rate in its loan portfolio and losses were expected
to reach 10 percent in 2007, the Board was convinced that being in the broker-originated
loan market was a good business strategy because the fees and interest income earned on

                                                       5
that portion of the portfolio had been far greater than the losses experienced or
anticipated. However, as borrowers defaulted on loans, the bank’s other real estate
owned (OREO)4 increased from zero in 2003 to more than $37 million by June 2009.
Further, as shown in Table 4, adversely classified assets grew significantly in 2008 and
2009, with broker-originated loans accounting for 62 percent and 47 percent of those
classifications, respectively. Past-due and nonaccrual loans also increased from
1.48 percent in 2003 to nearly 30 percent in 2009.

        Table 4: Mainstreet’s Adversely Classified Assets
                                    Adversely Classified             Past-Due and
          Examination Year
                                         Assets*                   Nonaccrual Loans**
          2003                              2.37%                          1.48%
          2004                             16.36%                         1.43%
          2005                             13.12%                         2.30%
          2006                             23.54%                         3.45%
          2008                             150.04%                         8.15%
          2009 Visitation                  330.50%                        27.57%
          2009                             466.20%                        29.70%
         Source: Reports of Examination (ROE) for Mainstreet.
         *Ratio is a percentage of Tier 1 Capital and reserves.
         **Ratio is a percentage of total loans.

During the 2006 examination, examiners cautioned management about the bank’s high
CRE concentrations, stating that “the high levels could expose the bank to unanticipated
earnings and capital volatility in the event of adverse changes in the general CRE
market.” At the 2008 examination, examiners concluded that the bank’s risk
management practices relative to CRE were inadequate. In the 2009 examination report,
examiners stated that the high level of CRE and ADC loans, combined with the downturn
in residential real estate, had caused the bank’s poor condition and that former senior
management5 had failed to implement necessary risk mitigation practices.

Oversight and Risk Management Practices

Mainstreet’s Board and senior management did not implement sound risk management
practices, which contributed to a high level of nonperforming assets. The 2009
examination report stated that the Board was lax in waiting until the fourth quarter of
2008 to take necessary and urgent remedial steps identified at the 2008 examination to
address the bank’s distressed financial condition and substantial management
weaknesses.6 Further, the report stated that the Board’s delay in addressing the unsafe
and unsound practices had further crippled the bank’s prospects for viability. Examiners
cited Mainstreet for weak risk management practices in the areas of loan policy guidance,
loan underwriting and credit administration practices, and ALLL methodology.
4
  OREO is property taken over by a bank through loan foreclosures.
5
  In November 2008, a new President/Chief Executive Officer was hired and several officer positions were
changed.
6
  FDIC examiners met with bank management on May 20, 2008 to present the findings from the March
examination and issued the examination report on July 10, 2008.

                                                    6
Loan Policy

Mainstreet’s Board did not establish appropriate controls and procedures in the bank’s
loan policy to effectively manage its CRE concentrations. However, it was not until the
2008 examination that examiners made recommendations for improving the bank’s loan
policy to include, among other things, strong real estate appraisal review procedures, the
establishment of concentration limits, accurate high loan-to-value (LTV) monitoring and
reporting, and global financial analysis7 of borrowers.

The bank submitted a revised loan policy to the FDIC on March 11, 2009 that included
provisions on CRE lending. However, it still lacked specific guidance on the (1) format,
frequency, and documentation methodology for on-site inspections; (2) capacity of
borrowers to repay loans; and (3) analysis of guarantor financial support.

Loan Underwriting and Credit Administration Weaknesses

Mainstreet did not implement sound loan underwriting and credit administration
practices, which contributed to the asset quality problems that developed in the
institution’s CRE portfolio. During the 2008 examination, examiners noted the following
weaknesses:

       •   liberal lending practices and risk selection with broker-originated mortgages,
       •   undue reliance on pre-qualification letters for secondary market financing,
       •   inadequate consideration of repayment capacity and collateral,
       •   inadequate risk management of CRE concentrations,
       •   capitalization of interest/use of interest reserves, and
       •   inadequate internal audit program.

Financial Institution Letter (FIL) 22-2008, Managing Commercial Real Estate
Concentrations in a Challenging Environment, issued March 17, 2008, provides key risk
management processes for institutions with CRE concentrations, one of which is to
maintain updated financial and analytical information for borrowers and states that global
financial analysis of obligors should be emphasized. FIL-22-2008 also states that
inappropriately adding extra interest reserves on loans where the underlying real estate
project is not performing as expected can erode collateral protection and mask loans that
would otherwise be reported as delinquent.

According to the FDIC’s Risk Management Manual of Examination Policies
(Examination Manual), accurate and timely credit grading is a primary component of an
effective loan review system. Credit grading involves an assessment of credit quality, the
identification of problem loans, and the assignment of risk ratings. Examiners first
commented on the bank’s lack of objective criteria for loan grading at the 2004
examination. The 2008 examination noted that internal loan grading had not been revised
despite a 2005 examination recommendation to include objective criteria, and continued

7
    Global financial analysis involves analyzing a borrower’s complete financial obligations.

                                                       7
to be based entirely on subjective criteria. Examiners also noted in the 2008 examination
report that the bank’s risk rating system impeded the Board from accurately identifying
risk within the loan portfolio because the system was unreliable in stratifying and
quantifying risk and did not provide sufficient information for establishing an appropriate
ALLL. The 2009 examination again found the loan grading system to be inadequate.

Mainstreet was also found to be in contravention to Appendix A to Part 365 of the FDIC
Rules and Regulations (Interagency Guidelines for Real Estate Lending Policies), which
specifies that loans in excess of the supervisory LTV limits should be identified in the
bank’s records and their aggregate amount reported to the Board at least quarterly. In
2008, 16 loans exceeded the LTV limits and were not included in the report to the Board.
A small number of loans was also found to be in excess of LTV limits at the 2003
examination.

Allowance for Loan and Lease Losses

Mainstreet’s methodology for determining the ALLL did not fully comply with
interagency policy. According to FIL-105-2006, Interagency Policy Statement on the
Allowance for Loan and Lease Losses, dated December 13, 2006, each institution must
analyze the collectability of its loans and maintain an ALLL at a level that is appropriate
and in accordance with Generally Accepted Accounting Principles (GAAP).8 According
to the 2008 examination report, the bank’s ALLL was underfunded because management
failed to consistently identify risk and assign accurate risk ratings. Although
management had assessed the appropriateness of the ALLL on a monthly basis, the Board
had not provided formal policy guidelines regarding the methodology for determining an
appropriate ALLL and did not effectively incorporate GAAP Financial Accounting
Standard No. 5 “Accounting for Contingencies” or No. 114 “Accounting by Creditors for
Impairment of a Loan.” As a result, the bank had to amend the March 31, 2008 Call
Report to account for the additional provision of $3.3 million to the ALLL. The 2009
examination also reported that the ALLL was underfunded and required an additional
provision of at least $10.9 million and the methodology was still not in compliance with
accounting standards.

Reliance on Volatile Funding Sources

In the years preceding its failure, Mainstreet became increasingly dependent on non-core
funding sources to support loan growth and maintain adequate liquidity. When properly
managed, such funding sources offer important benefits, such as ready access to funding
in national markets when core deposit growth in local markets lags planned asset growth.
However, non-core funding sources also present potential risks, such as higher costs and
increased volatility. According to the Examination Manual, placing heavy reliance on
potentially volatile funding sources to support asset growth is risky because access to
8
 The policy provides key concepts and requirements pertaining to the ALLL included in GAAP and
existing supervisory guidance. It describes the nature and purpose of the ALLL; the responsibilities of
Boards, management, and examiners; factors to be considered in the estimation of the ALLL; and the
objectives and elements of an effective loan review system, including a sound loan grading system.

                                                     8
these funds may become limited during distressed financial or economic conditions.
Under such circumstances, institutions could be required to sell assets at a loss in order to
fund deposit withdrawals and other liquidity needs.

Beginning in 2004, Mainstreet began to increasingly rely on non-core, potentially volatile
liabilities, including large time deposits, brokered deposits, FHLB borrowings, and
federal funds purchased to fund strong loan growth that had outpaced core deposits. In
addition, the bank used an Internet deposit listing service to obtain high-rate core
deposits, which are also considered volatile. According to the Examination Manual,
although out-of-area deposits obtained from an Internet listing service are included in
core deposits under the UBPR definition, such deposits should not be viewed as stable
funding sources.

Table 5 provides details on the bank’s core and non-core funding sources during the years
prior to its failure.

Table 5: Mainstreet’s Funding Sources
                                                 Time Deposits
                                                  $100,000 or          Brokered             FHLB
                             Core Deposits           More              Deposits          Borrowings
 Period Ended                  ($000s)*             ($000s)             ($000s)            ($000s)
 December 2003                   171,094               26,995             N/A               25,812
 December 2004                   203,048               40,299             N/A                3,725
 December 2005                   254,372               32,115            28,340             12,684
 December 2006                   270,504               43,947            28,740             15,141
 December 2007                   272,137               52,646            26,244             58,780
 December 2008                   350,404               78,975            49,683             24,497
 June 2009                       351,114               81,704            47,425             24,000
Source: UBPR data for Mainstreet.
*Core deposits may include some deposits of less than $100,000 obtained through the bank’s use of an
Internet listing service and brokered deposits representing time deposits of less than $100,000.

At the 2004 examination, examiners characterized the bank’s liquidity position as “tight”
but concluded that it was satisfactory because adequate non-core funding sources were
available. However, examiners noted that the bank’s net non-core funding dependency
ratio exceeded the bank’s peer group, indicating that the bank was relying on short-term
liabilities to fund longer-term assets. Further, examiners stated that the bank had not
established policy guidelines for its primary, secondary, and dependency liquidity ratios.

At the 2005 examination, examiners again found liquidity to be adequate but noted that
the bank was increasing its use of non-core funding. The 2006 examination reported that
the bank’s liquidity position was satisfactory, with moderate reliance on non-core
funding; however, examiners stated that balance sheet liquidity was somewhat limited as
a result of the high level of loans in relation to total assets.

The 2008 examination report stated that the bank’s net non-core funding dependency
ratio was high and examiners expressed concern regarding the bank’s reliance on non-

                                                   9
core funding given the bank’s unsatisfactory condition. Examiners noted that two
correspondent banks had revoked Mainstreet’s access to unsecured federal funds, and
access to brokered deposits would likely be restricted as a result of the bank’s Adequately
Capitalized capital category. Further, the FHLB capped Mainstreet’s borrowing ability at
25 percent of total assets and was considering reducing the cap to 20 percent. Examiners
also stated that the bank was operating outside of its Asset/Liability Management Policy
parameters, which stated that the bank’s volatile dependence should not exceed 10
percent. Specifically, in January 2008 and February 2008, the ratios were 20.52 percent
and 19.59 percent, respectively.

At the 2009 examination, examiners described the bank’s liquidity position as tenuous
due to its rapidly deteriorating condition and large operating losses that had depleted
capital. As a result, the bank’s access to funding was severely impacted by suspensions
and restrictions on borrowing lines and the bank’s inability to renew Internet certificates
of deposit (CD) and brokered deposits.


The FDIC’s Supervision of Mainstreet
The FDIC and the MDC conducted annual on-site examinations of Mainstreet consistent
with requirements9 and monitored the bank’s condition through the use of various offsite
monitoring mechanisms. Beginning in 2004, examiners consistently reported that
Mainstreet had high CRE and ADC concentrations and expressed concerns regarding the
bank’s loan risk rating system and ALLL methodology. However, the bank’s overall
financial condition was considered satisfactory until the 2008 examination. By then,
asset quality had rapidly deteriorated due to the decline in the real estate market.

The FDIC downgraded the institution’s ratings and pursued an enforcement action aimed
at correcting identified problems. These supervisory actions, and Mainstreet’s efforts to
address them, were not successful in preventing the bank’s failure. The supervisory
approach to Mainstreet was consistent with prevailing practices at the time for a bank
with Mainstreet’s risk profile. A lesson learned, however, is that earlier and more formal
supervisory action to mitigate the risk associated with CRE and ADC concentrations,
funded with non-core and other potentially volatile deposits, may have been prudent.
Specifically, examiners could have recommended that the Board diversify the bank’s loan
portfolio and required progress reports on the bank’s diversification efforts.




9
  Section 337.12 of the FDIC Rules and Regulations, which implements section 10(d) of the FDI Act
requires annual full-scope, on-site examinations of every state nonmember bank at least once every
12-month period and allows for 18-month intervals for certain small institutions (total assets of less than
$500 million) if certain conditions are satisfied. Mainstreet met the conditions for the 18-month
examination cycle after the 2006 examination.

                                                      10
Supervisory History

Historically, Mainstreet was considered a well-performing institution and consistently
received composite “2” supervisory ratings. From 2003 to 2009, the FDIC and the MDC
conducted six safety and soundness examinations of Mainstreet, alternating these
examinations with the exception of a final joint examination. In addition, prior to the
final joint examination, the FDIC conducted a visitation in January 2009.

At the 2006 examination, examiners identified a significant increase in adversely
classified assets and downgraded the asset quality component to a “2.” Examiners
warned management that the high CRE and ADC concentrations could expose the bank
to unanticipated earnings and capital volatility in the event of adverse changes in the
general CRE market but did not make any recommendations regarding diversifying the
bank’s loan portfolio or decreasing concentrations. By the 2008 examination, the bank’s
condition had seriously deteriorated and adversely classified assets represented an
excessive 150 percent of Tier 1 Capital and the ALLL. Consequently, examiners
assigned the bank a composite “4” rating. The FDIC pursued a Cease and Desist Order
(C&D) in August 2008 and the bank’s Board stipulated to the C&D in December 2008.

The C&D, which became effective on December 11, 2008, required the bank to, among
other things:

   •   Engage an independent consultant to assess the current management and have
       qualified management in place as outlined in the management assessment.
   •   Reduce adversely classified assets, including restricting advances to adversely
       classified borrowers.
   •   Reduce concentrations of credit.
   •   Revise the bank’s loan policies and procedures.
   •   Maintain an adequate ALLL.
   •   Maintain sufficient capital levels.
   •   Develop a business/strategic plan and profit and budget plan.
   •   Adhere to restrictions on brokered deposits.
   •   Correct violations and contraventions of guidelines and policy.
   •   Submit progress reports.

Despite efforts by the bank to address its problems during 2008 and 2009, the condition
of the bank continued to deteriorate, and Mainstreet received a composite “5” rating at
both the January 2009 visitation and April 2009 joint examination. Table 6 summarizes
Mainstreet’s supervisory history during this period, including the supervisory actions
taken.




                                           11
Table 6: Mainstreet’s Examination History, 2003 to 2009
     Examination                             Supervisory
                                               Ratings
      Start Date             Agency           (UFIRS)*               Supervisory Action

         10/20/03            FDIC              212222/2                     N/A
         10/13/04            MDC               212222/2                     N/A
         10/31/05            FDIC              212222/2                     N/A
         11/08/06            MDC               222222/2                     N/A
         03/24/08            FDIC              444443/4                Issued C&D.
                             FDIC                                Monitored compliance with
         01/12/09                              554544/5
                            Visitation                                   the C&D.
                                                                   Continued to monitor
         04/20/09         MDC/FDIC             554544/5
                                                                 compliance with the C&D.
Source: The FDIC’s Virtual Supervisory Information on the Net and ROEs for Mainstreet.
*Financial institution regulators and examiners use the Uniform Financial Institutions Rating System (UFIRS)
to evaluate a bank’s performance in six components represented by the CAMELS acronym: Capital
adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and Sensitivity to
market risk. Each component, and an overall composite score, is assigned a rating of 1 through 5, with 1
having the least regulatory concern and 5 having the greatest concern.

Offsite Monitoring

The FDIC’s offsite review program is designed to identify emerging supervisory
concerns and potential problems so that supervisory strategies can be adjusted
appropriately. The FDIC generates an offsite review list each quarter and performs
offsite reviews for each bank that appears on the list. Offsite reviews must be completed
and approved 3½ months after each Call Report date. This generally provides 45 days to
complete the offsite reviews once Call Report data are finalized. The system-generated
offsite review list includes only institutions rated “1” and “2” that are either:

     •    identified by the Statistical CAMELS Offsite Rating (SCOR)10 system as having a
          35 percent or higher probability of downgrade to “3” or worse, or

     •    identified in the Growth Monitoring System (GMS)11 as having a growth
          percentile of 98 or 99.

In 2004 and 2005, the FDIC conducted offsite reviews of Mainstreet due to its loan
growth. However, the FDIC did not contact the bank’s management because, in each
instance, a recently completed examination report indicated that Mainstreet’s risk
management practices were effective. Just prior to the 2005 FDIC examination,
Mainstreet was again targeted for review due to the high volume of CRE loans. As part
of the examination pre-planning, examiners discussed the bank’s CRE lending activities
10
   SCOR is a financial model that uses statistical techniques, offsite data, and historical examination results
to measure the likelihood that an institution will receive a CAMELS downgrade at the next examination.
11
   GMS is an offsite rating tool that identifies institutions experiencing rapid growth or having a funding
structure highly dependent on non-core funding sources.

                                                      12
with the bank’s president and planned to include an assessment of CRE lending practices
during the examination.

In June 2007, an examiner contacted the bank regarding its CRE loans. Bank
management responded that: (1) the bank was planning to reduce its loan portfolio in
2007 and not incur new loan growth in 2008, (2) earnings were down due to nonaccrual
loans and foreclosures, (3) one of the biggest risks was credit quality, and (4) acquiring
core deposits was difficult. Nevertheless, examiners concluded that a supervisory
response was not necessary. Later the same month, Mainstreet appeared on the FDIC
offsite review list because of the high volume of nonaccrual loans and, to a lesser extent,
the high volume of OREO. The FDIC contacted Mainstreet’s management on
September 5, 2007 and after discussion concluded that the bank’s risk profile was stable.
Therefore, no change in supervisory status or additional follow-up was deemed necessary
prior to an FDIC examination that was scheduled for the second quarter of 2008.
Additionally, the FDIC “determined that no specific follow-up was necessary because of
the favorable responses provided by bank management, including comments that the
volume of problem loans had peaked and collateral margins were strong.” The FDIC
continued to monitor Mainstreet through its offsite review list each quarter, stating that
the bank’s risk level was medium and increasing, and accelerated the examination
originally scheduled for May 2008 to March 2008.

Supervisory Response to Key Risks

FDIC and MDC officials stated that their supervisory approach to Mainstreet was
influenced by the good relationship they had with bank management, bank management’s
history of operating the institution in safe and sound manner, the low level of adversely
classified assets, good earnings, and ADC loans that were pre-sold with permanent
financing in place in a healthy real estate market. As a result, examiners did not
recommend that Mainstreet management diversify the bank’s loan portfolio or decrease
its concentrations. However, stronger supervisory action may have been warranted at the
2005 and the 2006 examinations given Mainstreet’s risk profile. Although both
examinations found the institution’s performance to be satisfactory, examiners identified
risks within the bank’s operations that, as discussed throughout this report, ultimately led
to Mainstreet’s failure.

The 2005 FDIC Examination

Examiners made a repeat recommendation in 2005 for bank management to include
objective criteria in the bank’s loan risk rating system and noted that it was unclear from
documentation whether the ALLL was being funded at a level commensurate with the
risk within the loan account. This condition could have resulted in an underfunded loan
loss reserve being reported in Call Reports. With respect to the bank’s increasing
reliance on non-core funding to support loan growth, examiners did not caution
management about the volatile nature of such funds. In addition, examiners reported that
the bank had CRE concentrations representing 73 percent of total loans and 824 percent


                                             13
of Tier 1 Capital, yet, they did not recommend that management reduce concentrations or
diversify the bank’s loan portfolio.

Further, examiners did not make any recommendations regarding the bank’s loan policy
that had been revised in June 2005. Our review of the revised policy found that, among
other things, it lacked concentration limits, underwriting guidance on broker-originated
loans, specific guidance on assessing borrowers’ creditworthiness, and real estate
appraisal review procedures. However, at the 2008 examination, examiners cited these
same weaknesses in the bank’s loan policy.

The 2006 MDC Examination

Examiners downgraded the bank’s asset quality component rating to a “2” in 2006
because of a significant increase in adversely classified assets, and a delinquency rate of
approximately 9.4 percent in residential construction loans compared to total loans. In
addition, $3.7 million in adversely classified ADC loans were in foreclosure and
considered potential OREO, or were transferred as OREO, during the examination.
Examiners stated that the bank’s balance sheet liquidity was somewhat limited due to the
high level of loans in relation to total assets but was adequate given the bank’s access to
non-core funding sources. Again, examiners did not caution management about the
volatile nature of such deposits.

Examiners also noted that the bank’s ADC and CRE concentrations were 547 percent and
795 percent of total capital, respectively. Although examiners stated that the high
concentrations could expose the bank to unanticipated earnings and capital volatility in
the event of adverse changes in the general CRE market, they did not recommend that
management reduce concentrations or diversify the loan portfolio. A senior MDC
official told us that MDC could have been more critical of the concentrations at the 2006
examination and even as early as the 2004 examination.

Examiners stated that management was experienced and had developed good risk
management policies and practices for all areas of the bank and made no specific
comments on the loan policy and/or broker-originated loans.

The 2008 and 2009 Examinations

At the 2008 examination, examiners attributed the bank’s weak financial condition to its
liberal lending practices and risk selection with broker-originated mortgages, as well as
real estate development lending. Examiners also stated that (1) Board and management
performance was unsatisfactory, (2) an excessive volume of adversely classified assets
contributed to the deterioration in asset quality, (3) an additional provision to the ALLL
would further impact poor earnings, (4) capital was inadequate in relation to the bank’s
risk profile, and (5) liquidity was deficient.

Broker-originated loans were not mentioned in examination reports prior to the 2008
examination. FDIC officials told us during interviews that the bank did not become

                                            14
heavily involved in broker-originated loans until 2007. However, our review of the
Board meeting minutes found that the bank had been engaged in this activity since 2003
and had funded 1,275 broker-originated loans totaling $318.7 million between 2003 and
2005. As stated earlier in the report, broker-originated loans accounted for a significant
percentage of the adversely classified assets at the 2008 and 2009 examinations.

In addressing why broker-originated loans were not mentioned in earlier examinations,
FDIC regional officials stated that:

       The Bank did fund a large volume of brokered construction loans. Before the
       downturn in the real estate market, the Bank normally funded these loans through
       the construction phase, and the loans would ultimately be paid off through end-
       purchaser or secondary market financing. When the real estate market
       deteriorated, the refinancing did not occur (the bank relied too heavily on pre-
       qualification letters without firm take-out commitments), and the Bank was forced
       to retain them on its balance sheet. At the time of the 2008 examination,
       $68 million of these loans were retained on the balance sheet.

By the time of the 2009 examination, the bank’s condition had further deteriorated.
Examiners stated that the Board and management had not demonstrated the ability to
correct long-standing problems, address emerging issues, or implement appropriate risk
mitigation practices, and that the bank needed an immediate capital injection to be viable.

Asset Quality Ratings and Assessment of Supervisory Action

According to the Examination Manual, several factors should be considered prior to
assigning the asset quality rating. They include the:

   •   adequacy of underwriting standards, soundness of credit administration practices,
       and appropriateness of risk identification practices;
   •   diversification and quality of the loan and investment portfolios;
   •   existence of asset concentrations; and
   •   ability of management to properly administer its assets, including the timely
       identification and collection of problem assets.

Given the risks identified, the “1” and the “2” asset quality ratings at the 2005 and 2006
examinations, respectively, may not have been consistent with the UFIRS definitions.
Specifically, the “1” rating in asset quality indicates strong asset quality and credit
administration practices with weaknesses considered minor in nature and risk exposure
modest in relation to capital protection. The “2” rating in asset quality indicates
satisfactory asset quality, with weaknesses requiring limited supervisory attention and
risk exposure commensurate with capital protection.

Mainstreet did not adequately address examiners’ concerns in 2004 and 2005 regarding
the bank’s risk rating system and ALLL methodology, which resulted in significant levels
of adversely classified assets and a seriously deficient ALLL at the 2008 and 2009

                                             15
examinations. Consistent with the progressive nature of FDIC’s supervision, a
downgrade in the asset quality component in 2005 may have prompted closer scrutiny
and a further downgrade to a “3” in asset quality at the 2006 examination, indicating
elevated supervisory concern. At that time, the MDC and/or the FDIC could have
initiated an informal action such as a Bank Board Resolution or a Memorandum of
Understanding, either of which would have prompted follow-up between examinations.

Although the C&D issued in December 2008 addressed serious deficiencies within
Mainstreet, it was not timely given that serious deterioration in the bank’s asset quality
had already occurred. In hindsight, earlier and stronger supervisory action at the 2005
and 2006 examinations may have been warranted for Mainstreet given its concentrations,
broker-originated loans, inadequate risk rating system and ALLL methodology,
increasing reliance on volatile funding, and overall poor risk management practices.

Implementation of PCA

The purpose of PCA is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. PCA establishes a system of restrictions and
mandatory and discretionary supervisory actions that are to be triggered depending on an
institution’s capital levels. Part 325 of the FDIC’s Rules and Regulations implements
PCA requirements by establishing a framework for taking prompt corrective action
against insured state-charted nonmember banks that are not Adequately Capitalized. In
addition to including provisions in the C&D on minimum capital requirements, the FDIC
followed PCA guidance and appropriately notified the bank of its capital position and
corresponding requirements, as follows:

     •   On July 10, 2008, the FDIC notified Mainstreet that it was Adequately Capitalized
         based on the findings from the March 24, 2008 FDIC examination, and
         recommended that management review the restrictions concerning brokered
         deposits found in Section 29 of the FDI Act and Section 337.6 of the FDIC Rules
         and Regulations that apply to Adequately Capitalized institutions.12

     •   On October 31, 2008, the FDIC notified Mainstreet that it was Adequately
         Capitalized based on the September 30, 2008 Call Report data and included
         notification on brokered deposit restrictions.

     •   On February 2, 2009, the FDIC notified Mainstreet that it was Undercapitalized
         based on the December 31, 2008 Call Report data and advised the Board and
         management that the bank was subject to restrictions on asset growth,
         acquisitions, new activities, new branches, dividends, other capital distributions,
         and management fees. The FDIC also required the bank to submit a Capital
         Restoration Plan by March 16, 2009.

12
  However, in its June 30, 2008 Call Report, the bank reported itself as Well Capitalized as a result of a
$3.5 million capital injection. Therefore, according to the FDIC, the bank was Well Capitalized until
October 30, 2008, when it filed its September 30, 2008 Call Report.

                                                     16
     •   On May 1, 2009, the FDIC notified Mainstreet that it was Significantly
         Undercapitalized.

     •   On June 3, 2009, the FDIC notified Mainstreet that it was Critically
         Undercapitalized as a result of the April 20, 2009 joint FDIC/MDC examination
         and informed bank management of restrictions on asset growth, dividends, other
         capital distributions, renewing or accepting brokered deposits, and management
         fees.

As part of the December 2008 C&D, the FDIC required Mainstreet to submit a Capital
Restoration Plan and the bank did so on March 11, 2009. On April 28, 2009, the FDIC
sent a letter to the bank stating that the plan was unacceptable. On June 12, 2009,
Mainstreet submitted a revised Capital Restoration Plan that included the bank selling
four of its branches and OREO; the holding company selling White Rock Bank;
increasing the ALLL; and the bank obtaining an investor. However, on August 12, 2009,
the FDIC informed Mainstreet that the revised plan was unacceptable as it provided little
assurance that the bank’s capital would be restored in a timely manner.

On November 17, 2008, Mainstreet had submitted an application for $13.5 million in
funding under the Troubled Asset Relief Program (TARP).13 Mainstreet subsequently
withdrew its application on February 25, 2009. On August 28, 2009, the MDC closed
Mainstreet due to its insolvency.


Corporation Comments
We issued a draft of this report on March 4, 2010. After we issued our draft report, we
met with management officials to further discuss our results. Management provided
additional information for our consideration, and we revised our report to reflect this
information, as appropriate. On March 23, 2010, the Director, DSC, provided a written
response to the draft report. That response is provided in its entirety as Appendix 4 of
this report.

In its response, DSC reiterated the OIG’s conclusions regarding the cause of Mainstreet’s
failure and cited several supervisory activities, discussed in the report, that were
undertaken to address risks at the institution prior to its failure. DSC also noted that
strong supervisory attention is necessary for institutions with high ADC and CRE
concentrations and volatile funding sources, such as Mainstreet, and has issued updated
guidance reminding examiners to take appropriate action when those risks are
imprudently managed.


13
  TARP was established under the Emergency Economic Stabilization Act of 2008. The Act established
the Office of Financial Stability within the United States Department of the Treasury (Treasury). Under
TARP, Treasury will purchase up to $250 billion of senior preferred shares from qualifying institutions as
part of the Capital Purchase Program.

                                                    17
                                                                               Appendix 1

                    Objectives, Scope, and Methodology

Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, which
provides, in general, that if a deposit insurance fund incurs a material loss with respect to
an insured depository institution, the Inspector General of the appropriate federal banking
agency shall prepare a report to that agency, reviewing the agency’s supervision of the
institution. The FDI Act requires that the report be completed within 6 months after it
becomes apparent that a material loss has been incurred.

The objectives of this material loss review were to (1) determine the causes of
Mainstreet’s failure and the resulting material loss to the DIF and (2) evaluate the FDIC’s
supervision of Mainstreet, including the FDIC’s implementation of the PCA provisions of
section 38.

We conducted the audit from December 2009 to March 2010, in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

Scope and Methodology

To achieve the audit objectives, we performed the following procedures and techniques:

   •   Analyzed examination and visitation reports prepared by the FDIC and the MDC
       from 2003 to 2009.

   •   Analyzed available examination work papers prepared by the FDIC from 2008
       and 2009.

   •   Reviewed the following:

       - Bank data contained in UBPRs and Call Reports.
       - Correspondence maintained at the DSC’s Kansas City Regional Office and
         Minneapolis Field Office.
       - Reports prepared by the Division of Resolutions and Receiverships and DSC
         related to the bank’s closure.
       - Pertinent DSC policies and procedures.


   •   Interviewed the following FDIC officials:

       - DSC management in Kansas City, Kansas and Minneapolis, Minnesota.

                                             18
                                                                                Appendix 1

                    Objectives, Scope, and Methodology

       - FDIC examiners from the Minneapolis Field Office who participated in
         Mainstreet examinations.

   •   Interviewed a senior MDC official from Minneapolis, Minnesota, to discuss his
       historical perspective of the institution, its examinations, and other activities
       regarding the MDC’s supervision of the bank.

We performed our audit field work at OIG offices in Arlington, Virginia, and Dallas,
Texas.


Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with our audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC’s systems, reports,
ROEs, and interviews of examiners to understand Mainstreet’s management controls
pertaining to the causes of failure and material loss as discussed in the body of this report.

We obtained data from various FDIC systems, but we determined that the controls were
not significant to the audit objectives and, therefore, did not evaluate the effectiveness of
information system controls. We relied on our analysis of information from various
sources, including ROEs, correspondence files, and testimonial evidence to corroborate
data obtained from systems that were used to support our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment was not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in OIG program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with the provisions of PCA and limited tests to
determine compliance with certain aspects of the FDI Act. The results of our tests were
discussed where appropriate in the report. Additionally, we assessed the risk of fraud and
abuse related to our objectives in the course of evaluating audit evidence.




                                              19
                                                                                  Appendix 2

                               Glossary of Terms

Term                Definition
Adversely           Assets subject to criticism and/or comment in an examination report.
Classified Assets   Adversely classified assets are allocated on the basis of risk (lowest to
                    highest) into three categories: Substandard, Doubtful, and Loss.
Allowance for       General valuation allowances that have been established through charges
Loan and Lease      against earnings to absorb losses on loans and lease financing
Losses (ALLL)       receivables. Federally insured depository institutions must maintain an
                    ALLL that is adequate to absorb the estimated loan losses associated
                    with the loan and lease portfolio (including all binding commitments to
                    lend). To the extent not provided for in a separate liability account, the
                    ALLL should also be sufficient to absorb estimated loan losses
                    associated with off-balance sheet loan instruments such as standby
                    letters of credit.
Bank Board          A Bank Board Resolution is an informal commitment adopted by a
Resolution (BBR)    financial institution’s Board of Directors (often at the request of the
                    FDIC) directing the institution’s personnel to take corrective action
                    regarding specific noted deficiencies. A BBR may also be used as a tool
                    to strengthen and monitor the institution’s progress with regard to a
                    particular component rating or activity.
Call Report         The report filed by a bank pursuant to 12 U.S.C. 1817(a)(1), which
                    requires each insured State nonmember bank and each foreign bank
                    having an insured branch which is not a Federal branch to make to the
                    Corporation reports of condition in a form and that shall contain such
                    information as the Board of Directors may require. These reports are
                    used to calculate deposit insurance assessments and monitor the
                    condition, performance, and risk profile of individual banks and the
                    banking industry.
Concentration       A concentration is a significantly large volume of economically related
                    assets that an institution has advanced or committed to a certain industry,
                    person, entity, or affiliated group. These assets may, in the aggregate,
                    present a substantial risk to the safety and soundness of the institution.
Federal Home        The Federal Home Loan Bank System provides liquidity to member
Loan Bank           institutions that hold mortgages in their portfolios and facilitates the
(FHLB)              financing of mortgages by making low-cost loans, called advances, to its
                    members. Advances are available to members with a wide variety of
                    terms to maturity, from overnight to long-term, and are collateralized.
                    Advances are designed to prevent any possible loss to FHLBs, which
                    also have a super lien (a lien senior or superior to all current and future
                    liens on a property or asset) when institutions fail. To protect their
                    position, FHLBs have a claim on any of the additional eligible collateral
                    in the failed bank. In addition, the FDIC has a regulation that reaffirms
                    FHLB priority, and FHLBs can demand prepayment of advances when
                    institutions fail.



                                             20
                                                                                Appendix 2

                               Glossary of Terms


Loan-to-Value       A ratio for a single loan and property calculated by dividing the total
                    loan amount at origination by the market value of the property securing
                    the credit plus any readily marketable collateral or other acceptable
                    collateral.
Memorandum of       An informal corrective administrative action for institutions considered
Understanding       to be of supervisory concern but which have not deteriorated to the point
(MOU)               where they warrant formal administrative action. As a general rule, this
                    action is to be considered for all institutions rated a composite “3.”
Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective Action   institutions at the least possible long-term cost to the Deposit Insurance
(PCA)               Fund. Part 325, subpart B, of the FDIC Rules and Regulations, 12 Code
                    of Federal Regulations, section 325.101, et. seq., implements section 38,
                    Prompt Corrective Action, of the FDI Act, 12 United States Code
                    section 1831(o), by establishing a framework for determining capital
                    adequacy and taking supervisory actions against depository institutions
                    that are in an unsafe or unsound condition. The following terms are used
                    to describe capital adequacy: (1) Well Capitalized, (2) Adequately
                    Capitalized, (3) Undercapitalized, (4) Significantly Undercapitalized,
                    and (5) Critically Undercapitalized.

                    A PCA Directive is a formal enforcement action seeking corrective
                    action or compliance with the PCA statute with respect to an institution
                    that falls within any of the three categories of undercapitalized
                    institutions.
Uniform Bank        The UBPR is an individual analysis of financial institution financial data
Performance         and ratios that includes extensive comparisons to peer group
Report (UBPR)       performance. The report is produced by the Federal Financial
                    Institutions Examination Council for the use of banking supervisors,
                    bankers, and the general public and is produced quarterly from Call
                    Report data submitted by banks.




                                            21
                                                                        Appendix 3

                              Acronyms
ADC      Acquisition, Development, and Construction
ALLL     Allowance for Loan and Lease Losses
C&D      Cease and Desist Order
CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and
         Sensitivity to Market Risk
CD       Certificate of Deposit
CRE      Commercial Real Estate
DIF      Deposit Insurance Fund
DSC      Division of Supervision and Consumer Protection
FDI      Federal Deposit Insurance
FHLB     Federal Home Loan Bank
FIL      Financial Institution Letter
GAAP     Generally Accepted Accounting Principles
LTV      Loan-to-Value
MDC      Minnesota Department of Commerce
OIG      Office of Inspector General
OREO     Other Real Estate Owned
PCA      Prompt Corrective Action
ROE      Report of Examination
TARP     Troubled Asset Relief Program
UBPR     Uniform Bank Performance Report
UFIRS    Uniform Financial Institutions Rating System




                                      22
                                                                                Appendix 4
                                    Corporation Comments




Federal Deposit Insurance Corporation
550 17th Street NW, Washington, D.C. 20429-9990               Division of Supervision and Consumer Protection

                                                                         March 22, 2010
TO:               Stephen Beard
                  Assistant Inspector General for Material Loss Reviews

                  /Signed/
FROM:             Sandra L. Thompson
                  Director

SUBJECT:          Draft Audit Report Entitled, Material Loss Review of Mainstreet Bank, Forest
                  Lake, Minnesota (Assignment No. 2009-073)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act, the Federal Deposit Insurance
Corporation’s Office of Inspector General (OIG) conducted a material loss review of Mainstreet
Bank, Forest Lake, Minnesota (MB) which failed on August 28, 2009. This memorandum is the
response of the Division of Supervision and Consumer Protection (DSC) to the OIG’s Draft
Report (Report) received on March 4, 2010.

The Report concludes MB failed due to the Board and management’s aggressive pursuit of loan
growth centered in residential acquisition, development, and construction (ADC) loans, which
included broker originated loans. These loans were primarily funded with brokered deposits,
Federal Home Loan Bank borrowings, and large time deposits. MB management’s liberal
lending practices and decision to concentrate the loan portfolio in commercial real estate (CRE);
its aggressive growth in residential ADC lending and participations; and its reliance on brokered
and large deposits were the principal factors leading to MB’s deteriorating financial condition
and failure. MB’s overall weak loan administration and deterioration of the local Minneapolis-
St. Paul metropolitan real estate markets resulted in increased delinquencies and an excessive
volume of low quality assets. MB’s decision to expand by adding a commercial loan office in
the fourth quarter of 2007, and purchasing assets from another bank in February 2008,
contributed to a higher risk profile and unprofitability.

As part of DSC’s supervisory program, from 2005 through August 2009, the FDIC and the State
of Minnesota Department of Commerce Division of Financial Institutions jointly and separately
conducted four full-scope examinations. At the March 2008 examination, examiners
downgraded asset quality and noted a heightened risk due to high concentrations in large
construction and land development lending. As a result of the March 2008 examination, DSC
issued a formal enforcement action. At the January 2009 joint examination, examiners found
that MB was only viable with an immediate capital injection, which MB was unable to raise.

As noted in the Report, DSC issued timely guidance to all insured institutions, and examiners
made specific recommendations to MB’s management concerning elevated risk resulting from
CRE concentrations. DSC recognizes that strong supervisory attention is necessary for
institutions with high ADC/CRE concentrations and volatile funding sources, such as MB, and
has issued updated guidance reminding examiners to take appropriate action when those risks are
imprudently managed.

Thank you for the opportunity to review and comment on the Report.

                                                  23
